v'n

IN THE COURT OF CRIMINAL APPflftfcSu of CRIMINAL APPEALS
OF THE STATE OF OKLAHOMA STATE OF OKLAHOMA
FEB 2 4 2021
BILLY EARL PARKER,
JOHN D. HADDEN
CLERK

Petitioner,

No. MA-2021-86

v.
STATE OF OKLAHOMA,

q pfl

eV/7'K A

Respondent.
ORDER DENYING EXTRAORDINARY RELIEF
In December 2007, Petitioner was convicted of first-degree
murder in Oklahoma County District Court Case No. CF-2005-648. He
was sentenced to life imprisonment. The conviction and sentence were
affirmed on direct appeal. See Parker v. State, No. F-2007-510 (Okl.Cr.
October 2, 2008) (not for publication).
On July 6, 2015, the District Court denied Petitioner’s first post­
conviction application seeking DNA testing. We affirmed the District
Court’s decision. See Parker v. State, No. PC-2015-659 (Okl.Cr.
October 19, 2015) (not for publication). Subsequently, the District
Court denied post-conviction applications seeking DNA testing filed on
November 6, 2018 and March 15, 2019.

MA-2021-86, Billy E. Parker v. State of Oklahoma

Presently, Petitioner seeks a writ of mandamus with regard to the
post-conviction application filed in the District Court on March 15,
2019. For a writ of mandamus, Petitioner must establish, among other
things, that he has a clear legal right to the relief sought. See Rule
10.6(B), Rules of the Oklahoma Court of Criminal Appeals, Title 22,
Ch. 18, App. (2021). Petitioner does not have a right to the relief sought
because his request concerns a subsequent application seeking relief
under the Post-Conviction DNA Act. See Watson v. State, 2015 OK CR
3, U 3, 343 P.3d 1282, 1283 (“the procedural bar provisions in Section
1086 of the Uniform Post-Conviction Act apply to the petitioner’s
second or subsequent post-conviction motion requesting DNA testing
under the Post-conviction DNA Act”). Accordingly, Petitioner’s petition
for a writ of mandamus is DENIED.
IT IS SO ORDERED.
WITNESS OUR HANDS AND THE SEAL OF THIS COURT this

J2 *//£— day of

, 2021.

SCOTT ROWLAND, Vice Presiding Judge
2

$
0

MA-2021-86, Billy E. Parker v. State of Oklahoma

\

/

DAVIt) B. LEWIS,

;e

ROBERT L. HUDSON, Judge
ATTEST:

Clerk
OA

3

